                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-C-13-27A                                   Office of Inspections                                       May 2013




                 Compliance Followup Review of
                   Embassy Beirut, Lebanon




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOWUP REVIEW
        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Compliance Followup Reviews (CFR) cover three broad areas, consistent with Section
209 of the Foreign Service Act of 1980:

        Policy Implementation: whether policy goals and objectives are being effectively
          achieved; whether U.S. interests are being accurately and effectively represented; and
          whether all elements of an office or mission are being adequately coordinated.

        Resource Management: whether resources are being used and managed with
          maximum efficiency, effectiveness, and economy and whether financial transactions
          and accounts are properly conducted, maintained, and reported.

        Management Controls: whether the administration of activities and operations meets
          the requirements of applicable laws and regulations; whether internal management
          controls have been instituted to ensure quality of performance and reduce the
          likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
          whether adequate steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

        In conducting this CFR, the inspectors have: 1) reviewed the previous inspection report and
the reported corrective actions; 2) distributed survey instruments to inspected entity(s) and
compiled and analyzed the results to measure and report changes in the period between the
previous inspection and this CFR; 3) conducted on-site interviews and reviewed and collected
documentation to substantiate reported corrective actions; 4) addressed new, significant
deficiencies or vulnerabilities identified in the CFR survey results and during the course of the on-
site CFR and, where appropriate, issued new recommendations; and, 5) discussed the substance of
the draft CFR report substance of the draft CFR report at the final meeting with the head of the
inspected bureau/office or post.



                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                      1
Background                                                         2
Evaluation of Compliance                                           3
Leadership and Advocacy                                            4
  (b) (5)                                                          4
Security and Risk Mitigation Measures                              5
Work Environment                                                   7
Motor Vehicle Operations                                           8
   Self-Drive Policy                                               8
Flexible Work Schedule                                             9
   Position Descriptions                                           9
Information Management and Information Security                   10
   Unclassified Server and Telephone Room                         10
   Mail Screening Facility                                        10
List of CFR Recommendations                                       11
Principal Officials                                               12
Abbreviations                                                     13
APPENDIX I: Status of 2012 Inspection Recommendations             14
APPENDIX II: Status of 2012 Inspection Informal Recommendations   20




                                    iii
                       SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


   Key Judgments
         The Ambassador and the deputy chief of mission (DCM) have worked together effectively to
          create greater cohesion and information sharing in the community.

         The embassy effectively represents U.S. strategic and commercial interests and produces a
          high volume of valuable reporting that meets the needs of Washington policymakers.

         Physical security vulnerabilities at mission facilities, which include office buildings and
          residences, place employees at risk. Compliance with Overseas Security Policy Board
          standards is not possible at the current location. Construction of a new embassy compound
          (NEC) in Beirut, including office and residential facilities, was scheduled by the Bureau of
          Overseas Buildings Operations (OBO) as an alternate candidate for 2016. A NEC would
          address the security shortcomings of the present compound.

         The acting regional security officer (RSO) is proactive and widely respected.

(b) (5)




         Embassy security will improve with the construction of a NEC on recently acquired property,
          but Beirut is listed only as an alternate mission for 2016 in the Department of State
          (Department) Capital Security Construction Program.


   All findings and recommendations in this report are based on conditions observed during the on-
   site review and the standards and policies then in effect. The report does not comment at length
   on areas where the Office of Inspector General (OIG) team did not identify problems that need to
   be corrected. This report should be read in conjunction with the classified security annex.


   The CFR took place in Washington, DC, between January 4 and February 1, 2013, and in Beirut,
   Lebanon, between February 27 and March 9, 2013. (b) (6)




                                              1
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Background
        Embassy Beirut was attacked twice by vehicle bombs in the 1980s, first at the previous
chancery site and the second time at the current embassy compound. With the widening Syrian
civil war, sectarian tensions and security incidents have increased in Lebanon. All the major
Lebanese political parties have ties to one side or the other in the Syrian conflict, and there were
recent armed clashes in Tripoli, the country’s second-largest city, as well as growing problems in
the Bekaa Valley and southern city of Sidon. There are credible reports that Hizballah is
supporting the Syrian regime and has shelled Syrian rebel positions from positions inside
Lebanon. From 1976 to 2005, Syrian forces deployed in Lebanon. Hizballah started a brief but
intense war with Israel in 2006.

        The Syrian civil conflict has produced 325,000 registered refugees, and perhaps twice
that number of Syrians and 32,000 Palestinians have relocated to Lebanon. Lebanon has a
population of around 4 million. This influx of refugees has strained relations among Lebanon’s
sectarian communities (Shia, Sunni, and Christian) and between Lebanese and Syrians. U.S.
forces have deployed twice in support of Lebanon’s independence, sovereignty, and national
unity: in 1958 and in 1982–83. U.S. assistance to Lebanese Armed Forces and Lebanese Internal
Security Forces helps maintain stability in the current environment.

        The current embassy is located on an 18-acre, high-security compound in a suburb 20
minutes from downtown Beirut. The embassy includes the Departments of State, Defense,
Justice, and Commerce (local employees only) and the U.S. Agency for International
Development (USAID). Currently, the embassy has 71 U.S. direct-hire positions, 64 of which
were filled in March 2013. Twenty to 30 temporary duty personnel routinely supplement the
permanent staff. The embassy has 533 locally employed staff members.

        The Department’s threat rating for Beirut is critical for terrorism and political violence,
but the embassy is not included in the Department’s recent list of high-threat missions.1




1
 Deputy Assistant Secretary for High Threat Posts of Diplomatic Security, Department Notice 2012_11_175, dated
November 30, 2012.

                                           2
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
        The OIG team found that Embassy Beirut had complied with 32 of 34 formal
recommendations and with all informal recommendations contained in the 2012 inspection
report. A CFR automatically closes all formal and informal recommendations from the
inspection, but these may be reissued by the CFR, as appropriate.

        Of the 34 formal recommendations in the 2012 inspection report, 26 were closed before
the CFR and 8 were open. Twenty-five of the 26 recommendations closed before the CFR
remain closed, but the OIG team reissued Recommendation 24 dealing with an exception for the
location of the unclassified server room and telephone private branch exchange server room. The
OIG team closed 7 of the 8 previously open recommendations (Recommendations 5, 9, 15, 17,
18, 23, and 26). The OIG team revised and reissued a previously closed recommendation
(Recommendation 27) dealing with mail screening.

       Of the 13 informal recommendations, the OIG team closed all of them.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


          Leadership and Advocacy
                  The embassy effectively represents U.S. strategic and commercial interests and produces
          a high volume of valuable reporting that meets the needs of Washington policymakers. The
          Ambassador and DCM work effectively together to overcome the polarization of the community
          that characterized the environment at the time of the November 2011 inspection. They encourage
          openness, debate, and two-way information sharing. The front office conducts semimonthly all-
          hands meetings with American staff members and their dependents. The Ambassador and DCM
          schedule regular open door sessions for staff to raise questions, and the Ambassador also hosts a
          semimonthly roundtable with locally employed staff members. A monthly policy review meeting
          has encouraged information sharing and brainstorming. The DCM has developed and
          implemented an effective first- and second-tour officer professional development program.
(b) (5)




                                                  4
                                     SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Security and Risk Mitigation Measures
       The acting RSO and his staff have the confidence of the Ambassador and DCM. Travel
outside the confines of the compound for both personal and work-related activities requires
extensive security support.

       In fall 2012, the embassy responded to changing threat levels by restricting employee
work-related and personal movements outside the compound. The emergency action committee
(EAC) meets often in response to general and specific threats to consider adjustments to security
measures. It recently updated the tripwires for authorized and ordered departure. Most EAC
members are satisfied with the level of discussion and the openness of the DCM to differing
opinions. Recommendations are adopted by consensus and forwarded to the Ambassador for
approval. The Ambassador has not overruled an EAC recommendation in the past year.

        The EAC was active in the period prior to and during the CFR inspection. The EAC
reviews and recommends to the Ambassador key embassy security practices. The EAC could
better encourage staff buy-in and debunk perceptions that some decisions affecting the
community are made arbitrarily or capriciously by the regional security office or front office.
Holding individual EAC members accountable for representing mission security policies and
practices to the community would help overcome the perception—erroneous in the opinion of
the OIG team—among some employees that EAC recommendations are predetermined by the
front office and RSO. For example, the OIG team suggested the EAC convene to review
revisions to the embassy radio check policy instituted by the RSO in November 2012, which was
the source of some dissatisfaction among employees.

        Members of the EAC could brief subordinates more effectively on Ambassador-approved
decisions and the rationale for decisions on security. It is important that all members of the EAC
convey the same message of explanation for changes to security posture and mitigation
measures: ―one EAC, one message.‖ Conveying prompt and consistent messages mitigates
against rumors and miscommunications. Although the majority of American staff understands
the rationale for more restrictive security measures and abides by them, (b) (5)


       Training prior to arrival and at the mission could facilitate better understanding of and
adherence to personal security practices among all officers. The embassy is scheduled to conduct
a crisis management exercise in April 2013.

        The security of the current embassy compound has long been a challenge. The embassy
recently completed the purchase of property that can accommodate a NEC and requested that
OBO expedite the construction of a NEC. Currently, OBO has scheduled Beirut as an alternate
for construction of a NEC in 2016. A developer recently purchased property located between the
existing compound and the proposed NEC site. The Bureau of Diplomatic Security and OBO are
reviewing how the developer’s plans will affect the NEC. Embassy security will substantially
improve by moving to a NEC.



                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Some embassy employees feel they lack training for responding to an attack or a crisis.
Unlike staff at other critical threat posts, Embassy Beirut employees do not take the foreign
affairs counterterrorism course, which provides training on emergency medical procedures,
chemical biological remediation, and driving in dangerous situations. Such training imparts
important skills and awareness among employees at high-threat posts such as Beirut, but the
course is expensive. The Bureau of Diplomatic Security also has mobile training teams to
provide on-site training for all embassy employees, including local guards and bodyguards. In
addition, the Foreign Service Institute’s distance learning course, High Threat Security Overseas
Seminar, may meet Beirut’s needs at a lower cost.

Recommendation CFR 1: Embassy Beirut, in coordination with the Bureau of Diplomatic
Security, should require its employees to take appropriate security awareness training. (Action:
Embassy Beirut, in coordination with DS)




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Work Environment
       (b) (5)
                                     The OIG team observed cramped, aged, and difficult to
maintain office and residential facilities on the steep and hilly compound. For example, the
health unit is located on a steep hill in a prefabricated modular unit that is accessible only by
climbing outside stairs, making the unit inaccessible to disabled personnel or personnel being
transported by stretcher or gurney. The runoffs down the steep roads become rivers during a
heavy rain. Corrosion, erosion, and natural settling have caused the support structure of some
residential units to collapse.

        The management section is hard-pressed to repair and maintain the aged facilities,
construct new residential units, and provide space for warehouses and more staff. Construction
of a NEC would alleviate these long-standing issues and provide greater security, which remains
a serious challenge for the embassy.




                                         7
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Motor Vehicle Operations
        In anticipation of the CFR, the Ambassador delayed approving a draft revised motor pool
policy that addresses the 2012 inspection report recommendation that Embassy Beirut implement
a policy detailing the appropriate charges for other authorized use of government-owned
vehicles. Specifically, the Ambassador and DCM sought the OIG team’s advice about whether to
seek a waiver under 14 FAM 433.4 a.(2) from the Assistant Secretary for the Bureau of
Administration to enable Embassy Beirut to waive charges for the use of the motor pool to
provide food delivery services for American employees. The Office of the Legal Adviser had
advised that this use of government-owned vehicles in a high-threat environment such as Beirut
is permissible without reimbursement under 14 FAM 433.4. The embassy no longer provides
motor pool shuttle service for unofficial guests of American employees on the compound.

        During the CFR, the OIG team noted that government-owned vehicles equipped with a
driver and bodyguard, consistent with current security measures at Embassy Beirut, were
occasionally used to transport non-American, unofficial guests of American personnel,
accompanied by the American employee, around downtown Beirut. This situation resulted from
an attempt by the front office and regional security office to accommodate American officers
who were meeting with non-American personnel in downtown Beirut. Transport of non-
American and unofficial personnel in government-owned vehicles raises issues of U.S.
Government legal liability in case of a traffic accident or other incident. Per 14 FAM 433, there
is no provision that addresses the transport of non-American personnel, even if accompanied by
an authorized American employee, in government-owned vehicles in a high-threat environment
such as Beirut.

Recommendation CFR 2: Embassy Beirut should seek counsel from the Office of the Legal
Adviser regarding the use of U.S. Government-owned vehicles to transport non-American,
unofficial personnel accompanying authorized American employees in Beirut’s high-threat
environment and revise its motor vehicle policy as needed. (Action: Embassy Beirut, in
coordination with L)

Self-Drive Policy

        In the past, some embassy employees with self-drive privileges failed to adhere to the
embassy’s policy requirements that stipulate when it is permissible to self-drive. The employees
also failed to adhere to self-drive policy communication requirements. Dialogue between the
DCM and respective agency heads has improved mutual understanding and compliance. The
heads of those non-Department agencies who are on Annex A and under chief of mission
authority with respect to force protection indicated they are committed to adhering to the self-
drive policy established by the chief of mission.




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Flexible Work Schedule
        The general services officer is not exercising effective oversight of work schedules and
management of human resources in the unit. This lapse has resulted in several cases of locally
employed staff members working more than their scheduled working hours within a particular
pay period without receiving overtime pay or comp time as required by local policy. This lack of
oversight results in inefficient use of resources (b) (5)         Employees are working too little
or too many hours per pay period, and the differences are carried over into subsequent pay
periods. This carryover process is intended to account for the variations, but is against embassy
policy. According to the locally employed staff handbook, employees are expected to work 8
hours per day, 40 hours per week.

Recommendation CFR 3: Embassy Beirut should require supervisors to adhere to the flexible
work schedule guidelines contained in the locally employed staff handbook. (Action: Embassy
Beirut)

Position Descriptions

        As part of the annual evaluation of performance, supervisors are required to certify that
position descriptions are current and accurate for employees they supervise. Some locally
employed staff members indicated that compliance with this requirement is uneven. The OIG
team confirmed that some position descriptions are inaccurate and that the embassy does not
have a mechanism for holding supervisors accountable. Failure to maintain accurate position
descriptions can create confusion about roles and responsibilities, degrade staff effectiveness,
and lower morale. Refresher training for supervisors would also help.

Recommendation CFR 4: Embassy Beirut should require supervisors to verify the accuracy of
position descriptions before certifying them and should conduct training on supervisor
responsibilities. (Action: Embassy Beirut)




                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Information Management and Information Security
Unclassified Server and Telephone Room

        The embassy has not adequately addressed the physical, environmental, and procedural
security issues with the telephone switch and unclassified server room that OIG identified in its
2012 inspection report. In an oversight, the embassy has not obtained an exception from the
Bureau of Diplomatic Security to operate the unclassified server room and telephone switch in
prefabricated buildings. As a result, the embassy is not in compliance with 12 FAM 624. The
embassy is upgrading the telephone system, but the project completion date is undetermined and
an exception is still needed. The 2012 report recommendation is reissued.

Recommendation CFR 5: Embassy Beirut, in coordination with the Bureau of Diplomatic
Security, should request an exception for the unclassified server room and telephone private
branch exchange server room to operate in a prefabricated building. (Action: Embassy Beirut, in
coordination with DS)

Mail Screening Facility

      As noted in the 2012 inspection report, Embassy Beirut’s mail screening facility does not
comply with Department regulations. (b) (5)

                The embassy has not developed written procedures for equipment use in
screening mail as required by 14 FAH-4 H-121. The 2012 report recommendation is revised and
reissued.

Recommendation CFR 6: (b) (5)




                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of CFR Recommendations
Recommendation CFR 1: Embassy Beirut, in coordination with the Bureau of Diplomatic
Security, should require its employees to take appropriate security awareness training. (Action:
Embassy Beirut, in coordination with DS)

Recommendation CFR 2: Embassy Beirut should seek counsel from the Office of the Legal
Adviser regarding the use of U.S. Government-owned vehicles to transport non-American,
unofficial personnel accompanying authorized American employees in Beirut’s high-threat
environment and revise its motor vehicle policy as needed. (Action: Embassy Beirut, in
coordination with L)

Recommendation CFR 3: Embassy Beirut should require supervisors to adhere to the flexible
work schedule guidelines contained in the locally employed staff handbook. (Action: Embassy
Beirut)

Recommendation CFR 4: Embassy Beirut should require supervisors to verify the accuracy of
position descriptions before certifying them and should conduct training on supervisor
responsibilities. (Action: Embassy Beirut)

Recommendation CFR 5: Embassy Beirut, in coordination with the Bureau of Diplomatic
Security, should request an exception for the unclassified server room and telephone private
branch exchange server room to operate in a prefabricated building. (Action: Embassy Beirut, in
coordination with DS)

Recommendation CFR 6: (b) (5)




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                            Name      Arrival Date
Ambassador                                          Maura Connelly       Sept 2010
Deputy Chief of Mission                              Richard Mills     March 2012
Chiefs of Sections:
  Management                                           Robert Pitre     May 2012
  Consular                                           Sarah Bellman      Aug 2012
  Political/Economic                                 Danielle Garbe     July 2011
  Public Affairs                                   Amanda Johnson       Aug 2011
  Regional Affairs Office                          Stephen Bracken      June 2012
  Regional Security                                   David Brown       Sept 2011
   International Narcotics and Law Enforcement          Paul Malik      Nov 2012
Other Agencies:
  Department of Defense                          Col. David Brenner      Aug 2012
  Federal Bureau of Investigation                       Scott Smith      Sept 2012
  U.S. Agency for International Development            Azza el Abed      Aug 2012




                                     12
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CFR               Compliance followup review

DCM               Deputy chief of mission

Department        Department of State

EAC               Emergency action committee

NEC               New embassy compound

OBO               Bureau of Overseas Buildings Operations

OIG               Office of Inspector General

RSO               Regional security officer

USAID             U.S. Agency for International Development




                            13
                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


     APPENDIX I: Status of 2012 Inspection Recommendations
(b) (5)




     Recommendation 2: Embassy Beirut, in coordination with the Office of Medical Services,
     should request that the regional psychiatrist visit post at least twice a year to monitor workplace
     stress and overall morale. (Action: Embassy Beirut, in coordination with MED)

            Pre-CFR Status: Closed.

            CFR Findings: The OIG team confirmed implementation: recommendation closed.

     Recommendation 3: Embassy Beirut should establish a formal mentoring and professional
     development program for entry-level officers and specialists that emphasizes personal mentoring
     by mission leaders. (Action: Embassy Beirut)

            Pre-CFR Status: Closed.

            CFR Findings: The OIG team confirmed implementation: recommendation closed.

     Recommendation 4: Embassy Beirut should implement standard procedures to document the
     progress of grantees in meeting their stated objectives. (Action: Embassy Beirut)

            Pre-CFR Status: Closed.

            CFR Findings: The OIG team confirmed implementation: recommendation closed.

     Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs, in
     coordination with Embassy Beirut, should terminate the Internal Security Forces secure radio
     program and reprogram funds for other use, if appropriate. (Action: INL, in coordination with
     Embassy Beirut).

            Pre-CFR Status: Closed.

            CFR Findings: The OIG team confirmed implementation: recommendation closed.

     Recommendation 6: Embassy Beirut should acquire contact management software and train
     personnel on its use. (Action: Embassy Beirut)


                                             14
                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 7: Embassy Beirut should designate a consular representative to serve on the
International Cooperative Administrative Support Services budget committee. (Action: Embassy
Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 8: Embassy Beirut, in coordination with the Bureau of Human Resources and
the Bureau of Consular Affairs, should request language designation for the American citizens
services unit chief, position number 30358001, during the next language designation review.
(Action: Embassy Beirut, in coordination with DGHR and CA)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 9: Embassy Beirut should prepare disaster assistance kits to facilitate
consular section emergency preparedness. (Action: Embassy Beirut)

       Pre-CFR Status: Open.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 10: Embassy Beirut should standardize its cashier hours so that they are the
same every day. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 11: Embassy Beirut should implement a policy to increase its use of the post
support unit to process vouchers whenever possible. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 12: Embassy Beirut, in coordination with the Bureau of Near Eastern Affairs,
should schedule quarterly human resources officer visits to Beirut until the arrival of the
permanently assigned human resources officer. (Action: Embassy Beirut, in coordination with
NEA)

                                      15
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 13: Embassy Beirut, in coordination with the Bureau of European and
Eurasian Affairs, should transfer local employee position classification responsibilities to the
Frankfurt Regional Support Center. (Action: Embassy Beirut, in coordination with EUR)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 14: Embassy Beirut should abolish locally employed human resources
assistant position number C54225. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 15: Embassy Beirut should terminate the use of purchase orders to employ
foreign nationals. (Action: Embassy Beirut)

       Pre-CFR Status: Open.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 16: Embassy Beirut should construct a designated area that secures property
from theft and deterioration pending proper receipt and further disposition. (Action: Embassy
Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 17: Embassy Beirut should store nonexpendable property on shelving that
meets Department of State safety requirements. (Action: Embassy Beirut)

       Pre-CFR Status: Open.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 18: Embassy Beirut should implement a policy that details the appropriate
charges for other authorized use of government-owned vehicles. (Action: Embassy Beirut)

       Pre-CFR Status: Open.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.
                                         16
                       SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 19: Embassy Beirut should implement a policy to use the required functions
of the Department of State-standard Work Orders for Windows facilities maintenance
management application. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 20: Embassy Beirut should establish a schedule for conducting safety, health,
and environmental management committee meetings at least semiannually. (Action: Embassy
Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 21: Embassy Beirut should relocate the information systems officer to the
information systems center to facilitate closer oversight of the local employee systems
administration staff. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 22: Embassy Beirut should implement standard operating procedures for
performing information systems security officer duties. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 23: Embassy Beirut, in coordination with the Bureau of Overseas Buildings
Operations and the Bureau of Information Resource Management, should develop a project plan
for the cable infrastructure upgrade that incorporates data and telephone lines. (Action: Embassy
Beirut, in coordination with OBO and IRM)

       Pre-CFR Status: Open.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 24: Embassy Beirut, in coordination with the Bureau of Diplomatic Security,
should request a waiver for the sensitive but unclassified and telephone private branch exchange
server rooms to operate in a prefabricated building. (Action: Embassy Beirut, in coordination
with DS)

       Pre-CFR Status: Open.

                                       17
                           SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

                 CFR Findings: The OIG team reissued the recommendation.

          Recommendation 25: Embassy Beirut should update information systems standard operating
          procedures to include systems administration duties, backup and recovery procedures, and
          processes to maintain a systems operations log for unclassified and classified computer
          networks. (Action: Embassy Beirut)

                 Pre-CFR Status: Closed.

                 CFR Findings: The OIG team confirmed implementation: recommendation closed.

          Recommendation 26: Embassy Beirut should implement a plan to test the information
          technology contingency plans for the classified and unclassified computer networks and to
          update them as systems environments and resources change. (Action: Embassy Beirut)

                 Pre-CFR Status: Closed.

                 CFR Findings: The OIG team confirmed implementation: recommendation closed.
(b) (5)




          Recommendation 28: Embassy Beirut should implement a standardized procedure to manage
          information technology service requests. (Action: Embassy Beirut)

                 Pre-CFR Status: Closed.

                 CFR Findings: The OIG team confirmed implementation: recommendation closed.

          Recommendation 29: Embassy Beirut should implement an interagency policy for reserving
          and occupying the temporary duty quarters at the Tango Inn. (Action: Embassy Beirut)

                 Pre-CFR Status: Closed.

                 CFR Findings: The OIG team confirmed implementation: recommendation closed.

          Recommendation 30: Embassy Beirut should invest in the Ambassador’s representative the
          responsibility for coordinating and interfacing with the Beirut Recreation Association and its
          board on day-to-day operations. (Action: Embassy Beirut)

                 Pre-CFR Status: Closed.

                 CFR Findings: The OIG team confirmed implementation: recommendation closed.
                                                   18
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 31: Embassy Beirut should establish a second reserve fund to use for any
future equipment or furniture purchases for or renovations to the Tango Inn. (Action: Embassy
Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 32: Embassy Beirut should implement a plan to staff the medical unit until
the arrival of the Foreign Service health practitioner. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 33: Embassy Beirut should procure a lockbox with a combination lock for
storage of the consular sub cashier’s advance and store all backup sub cashier advances in the
sub cashier’s safe. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Recommendation 34: Embassy Beirut should implement procedures that restrict fuel pump
access only to authorized personnel. (Action: Embassy Beirut)

       Pre-CFR Status: Closed.

       Pre-CFR Findings: The OIG team confirmed implementation: recommendation closed.




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


APPENDIX II: Status of 2012 Inspection Informal
Recommendations
Informal Recommendation 1: Embassy Beirut should discontinue translation of open-source
press and media that are available to Washington consumers from other sources.

       CFR Findings: The OIG team confirmed alternative implementation: recommendation
       closed.

Informal Recommendation 2: Embassy Beirut should include consular representation on the
Mission Strategic and Resource Plan working group.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 3: Embassy Beirut should prepare an agenda for annual warden
meetings and use them as opportunities to solicit feedback and evaluate the program on an
ongoing basis.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 4: Embassy Beirut should provide training to all consular officers
in the start-to-finish process of producing an emergency passport.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 5: Embassy Beirut should develop a written standard operating
procedure for closing the visa section in the event of a crisis.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 6: Embassy Beirut should establish an International Cooperative
Administrative Support Services budget committee.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 7: Embassy Beirut should implement procedures to close out
purchase orders following final payments to vendors.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 8: Embassy Beirut should store inflammable materials properly and
minimize their stock levels based on market availability and usage.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.


                                     20
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 9: Embassy Beirut should align the information technology
contingency plans with the emergency action plan and update the information technology section
of the emergency action plan as needed.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 10: Embassy Beirut should review the community liaison office
workload with its Interagency Cooperative Administrative Support Services budget committee
and establish an additional position in the office.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 11: Embassy Beirut should establish a small commissary on the
embassy grounds.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.

Informal Recommendation 12: Embassy Beirut should eliminate use of the honor system to pay
for bar drinks and implement a cash-only sale mechanism, similar to that established for meal
purchases, to collect the funds for drinks sales.

       CFR Findings: The OIG team confirmed implementation: recommendation closed.




                                      21
                          SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
